<html>
<title> - THE EMERGING COMMERCIAL SUBORBITAL REUSABLE LAUNCH VEHICLE MARKET</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   THE EMERGING COMMERCIAL SUBORBITAL

                     REUSABLE LAUNCH VEHICLE MARKET
=======================================================================



                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                       WEDNESDAY, AUGUST 1, 2012

                               __________

                           Serial No. 112-101

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


       Available via the World Wide Web: http://science.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
75-397                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                    HON. RALPH M. HALL, Texas, Chair
F. JAMES SENSENBRENNER, JR.,         EDDIE BERNICE JOHNSON, Texas
    Wisconsin                        JERRY F. COSTELLO, Illinois
LAMAR S. SMITH, Texas                LYNN C. WOOLSEY, California
DANA ROHRABACHER, California         ZOE LOFGREN, California
ROSCOE G. BARTLETT, Maryland         BRAD MILLER, North Carolina
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
JUDY BIGGERT, Illinois               DONNA F. EDWARDS, Maryland
W. TODD AKIN, Missouri               BEN R. LUJAN, New Mexico
RANDY NEUGEBAUER, Texas              PAUL D. TONKO, New York
MICHAEL T. McCAUL, Texas             JERRY McNERNEY, California
PAUL C. BROUN, Georgia               TERRI A. SEWELL, Alabama
SANDY ADAMS, Florida                 FREDERICA S. WILSON, Florida
BENJAMIN QUAYLE, Arizona             HANSEN CLARKE, Michigan
CHARLES J. ``CHUCK'' FLEISCHMANN,    SUZANNE BONAMICI, Oregon
    Tennessee                        VACANCY
E. SCOTT RIGELL, Virginia            VACANCY
STEVEN M. PALAZZO, Mississippi       VACANCY
MO BROOKS, Alabama
ANDY HARRIS, Maryland
RANDY HULTGREN, Illinois
CHIP CRAVAACK, Minnesota
LARRY BUCSHON, Indiana
DAN BENISHEK, Michigan
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

               HON. STEVEN M. PALAZZO, Mississippi, Chair
F. JAMES SENSENBRENNER JR.,          JERRY F. COSTELLO, Illinois
    Wisconsin                        TERRI A. SEWELL, Alabama
LAMAR S. SMITH, Texas                DONNA F. EDWARDS, Maryland
DANA ROHRABACHER, California         FREDERICA S. WILSON, Florida
FRANK D. LUCAS, Oklahoma             HANSEN CLARKE, Michigan
W. TODD AKIN, Missouri                   
MICHAEL T. McCAUL, Texas                 
SANDY ADAMS, Florida                 EDDIE BERNICE JOHNSON, Texas
E. SCOTT RIGELL, Virginia
MO BROOKS, Alabama
RALPH M. HALL, Texas
                            C O N T E N T S

                       Wednesday, August 1, 2012

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Steven M. Palazzo, Chair, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    11

Statement by Representative Donna F. Edwards, Ranking Minority 
  Member, Subcommittee on Space and Aeronautics, Committee on 
  Science, Space, and Technology, U.S. House of Representatives..    11
    Written Statement............................................    12

                               Witnesses:

Ms. Carissa Christensen, Managing Partner, The Tauri Group
    Oral Statement...............................................    13
    Written Statement............................................    15

Dr. Alan Stern, Chairman, Suborbital Applications Researchers 
  Group
    Oral Statement...............................................    29
    Written Statement............................................    31

Mr. George Whitesides, CEO and President, Virgin Galactic LLC
    Oral Statement...............................................    40
    Written Statement............................................    42

Mr. Bretton Alexander, Director, Business Development and 
  Strategy, Blue Origin
    Oral Statement...............................................    47
    Written Statement............................................    49

Mr. Andrew Nelson, Chief Operating Officer, XCOR Aerospace
    Oral Statement...............................................    54
    Written Statement............................................    56

Dr. Stephan R. McCandliss, Research Professor, The Johns Hopkins 
  University
    Oral Statement...............................................    66
    Written Statement............................................    68

             Appendix I: Answers to Post-Hearing Questions

Ms. Carissa Christensen, Managing Partner, The Tauri Group.......    88

Dr. Alan Stern, Chairman, Suborbital Applications Researchers 
  Group..........................................................    93

Mr. George Whitesides, CEO and President, Virgin Galactic LLC....    96

Mr. Bretton Alexander, Director, Business Development and 
  Strategy, Blue Origin..........................................    99

Mr. Andrew Nelson, Chief Operating Officer, XCOR Aerospace.......   107

Dr. Stephan R. McCandliss, Research Professor, The Johns Hopkins 
  University.....................................................   115


                   THE EMERGING COMMERCIAL SUBORBITAL


                     REUSABLE LAUNCH VEHICLE MARKET

                              ----------                              


                       WEDNESDAY, AUGUST 1, 2012

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 2:24 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Steven 
Palazzo [Chairman of the Subcommittee] presiding.


[GRAPHIC] [TIFF OMITTED] 75397.001

[GRAPHIC] [TIFF OMITTED] 75397.002

[GRAPHIC] [TIFF OMITTED] 75397.003

[GRAPHIC] [TIFF OMITTED] 75397.004

[GRAPHIC] [TIFF OMITTED] 75397.005

[GRAPHIC] [TIFF OMITTED] 75397.006

[GRAPHIC] [TIFF OMITTED] 75397.007

[GRAPHIC] [TIFF OMITTED] 75397.008

    Chairman Palazzo. The Subcommittee on Space and Aeronautics 
will come to order. Good afternoon and welcome to today's 
hearing entitled, ``The Emerging Commercial Suborbital Reusable 
Launch Vehicle Market.''
    In front of you are packets containing the written 
testimony, biographies, and truth in testimony disclosure for 
today's witness panel.
    I recognize myself for five minutes for an opening 
statement.
    I would like to thank our many witnesses for agreeing to 
testify before our Subcommittee. I know that considerable 
effort goes into your preparation, and I want to thank you for 
taking the time to appear today to share your knowledge with 
us.
    Today's hearing will look at the emerging commercial 
suborbital reusable launch vehicle market. Suborbital vehicles 
can cross the thresholds of space and travel to the upper 
reaches of the atmosphere, typically above 62 miles for brief 
periods of time but not orbit the earth. Our hearing will 
provide an opportunity to receive testimony from researchers, 
market analysts, and some of the companies that are vying to 
build the vehicles to compete in this emerging marketplace.
    We are going to learn about a newly-released ten-year 
forecast of market demand. Many in the research community are 
hopeful to exploit the unique microgravity environment of 
suborbital flight with economical, routine access that enables 
expanded human research, atmospheric research and microgravity 
biological and physical research.
    Space tourism proponents are optimistic that a safe 
operational system will be developed to support their business 
ambitions, yet there are significant technical, financial, and 
regulatory challenges to be overcome before these hopes can be 
realized. Companies can perform test flights with an 
experimental permit from the FAA but cannot sell their services 
and become full-fledged commercial entities without first 
obtaining an FAA launch and reentry license.
    In addition, current law prohibits the FAA from issuing 
regulations on human spaceflight until October, 2015. Until 
then the FAA will engage with the industry participants who can 
share their views on how to improve safety without proposing 
burdensome regulations.
    I encourage industry to work closely with the FAA so that 
they will be able to draft effective regulations in 2015, and 
diminish the chance that these regulations will stifle the 
industry.
    I look forward to hearing from our experts about their 
plans to develop a profitable and sustainable business. It is 
my hope they will be successful bringing these new markets into 
the mainstream, recognizing that the commercial suborbital 
launch vehicle business faces significant technical challenges 
as new designs are introduced. I am optimistic they will 
perform safely and profitably while reducing costs and 
increasing the quality of suborbital research.
    We have a lot of ground to cover today. I want to thank our 
witnesses again. I look forward to today's discussion.
    [The prepared statement of Mr. Palazzo follows:]

     Prepared Statement of Subcommittee Chairman Steven M. Palazzo

    Good afternoon and welcome to today's hearing. I would like to 
thank our many witnesses for agreeing to testify before our 
Subcommittee. I know that considerable effort goes into your 
preparation, and I want to thank you for taking the time to appear 
today to share your knowledge with us.
    Today's hearing will look at the emerging commercial sub-orbital 
reusable launch vehicle market. Suborbital vehicles can cross the 
thresholds of space and travel in the upper reaches of the atmosphere, 
typically above 62 miles for brief periods of time, but not orbit the 
Earth. Our hearing will provide an opportunity to receive testimony 
from researchers, market analysts, and some of the companies that are 
vying to build the vehicles to compete in this emerging marketplace. 
We're also going to learn about a newly released 10-Year Forecast of 
Market Demand.
    Many in the research community are hopeful to exploit the unique 
microgravity environment of suborbital flight with economical, routine 
access that enables expanded human research, atmospheric research, and 
microgravity biological and physical research. Space tourism proponents 
are optimistic that a safe, operational system will be developed to 
support their business ambitions. Yet there are significant technical, 
financial, and regulatory challenges to be overcome before these hopes 
can be realized.
    Companies can perform test flights with an ``experimental permit'' 
from the FAA, but cannot sell their services and become full-fledged 
commercial entities without first obtaining an FAA launch and reentry 
license. In addition, current law prohibits the FAA from issuing 
regulations on human spaceflight until October 2015. Until then, the 
FAA will engage with industry participants who can share views on how 
to improve safety without proposing burdensome regulations. I encourage 
industry to work closely with the FAA, so that they will be able to 
draft effective regulations in 2015, and diminish the chance that these 
regulations will stifle the industry.
    I look forward to hearing from our experts about their plans to 
develop a profitable and sustainable business. It is my hope they will 
be successful bringing these new markets into the mainstream, 
recognizing that the commercial suborbital launch vehicle business 
faces significant technical challenges as new designs are introduced. 
I'm optimistic they will perform safely and profitably while reducing 
costs and increasing the quality of suborbital research.
    We have a lot of ground to cover today. I want to thank our 
witnesses again, and I look forward to today's discussion.

    Chairman Palazzo. I now recognize Ms. Edwards for her 
opening statement.
    Ms. Edwards. Thank you, Mr. Chairman, and I will be brief. 
I also join you in thanking the witnesses and also thanking 
them for their patience. Sometimes our schedules are a little 
bit unpredictable, but I want to welcome all of our witnesses 
because I anticipate that this is going to be a really 
interesting and informative hearing on the emerging commercial 
suborbital transportation market.
    And Mr. Chairman, this Subcommittee has been heavily 
involved in commercial space transportation issues, including 
suborbital systems. It is also clear that developing commercial 
suborbital systems has been a challenging undertaking. At a 
2003 joint House/Senate hearing on commercial space 
transportation, companies predicted that commercial suborbital 
flights could be anticipated as early as 2006. A few years 
later at a hearing held by this Subcommittee in April, 2005, an 
industry representative estimated that service could begin in 
2008 or 2009.
    Based on the prepared statements provided by the industry 
witnesses, I am encouraged by the progress that is being made 
by competing designs, and I look forward to continuing 
accomplishments. I would like to also better understand what 
challenges this emerging industry has encountered in getting to 
where it is today and what hurdles remain.
    And further, I hope to hear from our witnesses on what 
challenges have been overcome, what opportunities lie ahead, 
the potential impacts on NASA research activities, and what 
steps will be needed to ensure that this can be done safely, 
and I would add to that what it is that this Congress needs to 
do to ensure your success.
    And so thank you, Mr. Chairman, and I yield back the 
balance of my time.
    [The prepared statement of Ms. Edwards follows:]

     Prepared Statement of Ranking Minority Member Donna F. Edwards
    Good afternoon. I'd like to join the Chairman in welcoming our 
witnesses to what I anticipate will be an interesting and informative 
hearing on the emerging commercial suborbital transportation market.
    Mr. Chairman, this Subcommittee has been heavily involved in 
commercial space transportation issues, including the suborbital 
systems.
    It is clear that developing commercial suborbital systems has been 
a challenging undertaking. At a 2003 joint House-Senate hearing on 
commercial space transportation, companies predicted that commercial 
suborbital flights could be anticipated as early as 2006. A few years 
later, at a hearing held by this Subcommittee in April 2005, an 
industry representative estimated that service could begin in 2008 or 
2009.
    Based on the prepared statements provided by the industry 
witnesses, I am encouraged by the progress being made by competing 
designs, and I look forward to continued accomplishments. I would like 
to better understand what challenges this emerging industry has 
encountered in getting to where it is today, and what hurdles remain.
    Further, I hope to hear from our witnesses on what challenges have 
been overcome, what opportunities lie ahead, the potential impacts on 
NASA research activities, and what steps will be needed to ensure that 
this can all be done safely.
    Thank you and I yield back the balance of my time.

    Chairman Palazzo. Thank you, Ms. Edwards. If there are 
Members who wish to submit additional opening statements, your 
statements will be added to the record at this point.
    At this time I would like to introduce our panel of 
witnesses, and then we will proceed to hear from each of them 
in order.
    Our first witness is Ms. Carissa Christensen, a Founder and 
Managing Partner of the Tauri Group, an analytic consulting 
firm based in Alexandria, Virginia. Ms. Christensen is a 
recognized expert with over 25 years of experience in analysis 
of space systems, industry economics, regulatory requirements, 
and underlying demand.
    Our next witness is Dr. Alan Stern. Dr. Stern is an 
Associate Vice President of the Southwest Research Institute, 
and in 2011 was appointed Director of the Florida Space 
Institute. Dr. Stern is the Principle Investigator of NASA's 
Pluto Kuiper Belt Mission, and in 2000 and 2008, he served as 
the Associate Administrator of NASA's Science Mission 
Directorate.
    Our next witness is Mr. George Whitesides, the CEO and 
President of Virgin Galactic, the space tourism company founded 
by Sir Richard Branson. Prior to Virgin Galactic Mr. Whitesides 
served as Chief of Staff of the current NASA Administrator and 
before that as Executive Director of the National Space 
Society.
    Our next witness is Mr. Bretton Alexander, Director of 
Business Development and Strategy for Blue Origin, a developer 
of human spaceflight systems founded by Amazon.com's Jeff 
Bezos. Prior to that Mr. Alexander was the Chair of the 
Commercial Space Committee of the NASA Advisory Council. Since 
2008, Mr. Alexander has served as a member of the FAA's 
Commercial Space Transportation Advisory Committee, COMSTAC.
    Our next witness is Mr. Andrew Nelson, Chief Operating 
Officer and Vice President of Business Development for XCOR 
Aerospace. Mr. Nelson originated the space vehicle wet lease 
concept that is at the heart of XCOR's market strategy. Prior 
to XCOR Mr. Nelson spent approximately 15 years in the 
aerospace sector and a total of nine years with two Wall Street 
firms; Morgan Stanley and Lehman Brothers.
    The last witness on our panel, Dr. Stephan McCandliss, is a 
Research Professor at the John Hopkins University, Department 
of Physics and Astronomy and is currently Principle 
Investigator of a Sounding Rocket Program. Since coming to the 
John Hopkins University, he has launched 15 sounding rocking 
borne for UV spectroscopic instruments. Dr. McCandliss has been 
Principle Investigator and Co-Investigator on several NASA 
grants to develop space mission technologies and served as a 
member of NASA's Sounding Rocket Working Group from 1999 to 
2003.
    Welcome to you all.
    As our witnesses should know, spoken testimony is limited 
to five minutes each. After all witnesses have spoken, Members 
of the Committee will have five minutes each to ask questions.
    I now recognize our first witness, Ms. Christensen, for 
five minutes.

             STATEMENT OF MS. CARISSA CHRISTENSEN,

               MANAGING PARTNER, THE TAURI GROUP

    Ms. Christensen. Chairman Palazzo, Congresswoman Edwards, 
Members of the Committee, thank you for the opportunity to 
testify today on emerging markets for suborbital reusable 
vehicles. On a personal note, it is an honor to be part of 
this, and to be testifying today. I spent my career in 
commercial space, and I am delighted that Congress is 
interested in this important subject.
    My firm, The Tauri Group, recently completed a six month 
study to forecast ten-year demand for suborbital reusable 
vehicles or SRVs. The FAA Office of Commercial Space 
Transportation and Space Florida jointly funded the study.
    Our purpose was to develop an objective and rigorous 
forecast of SRV demand and market dynamics. Equally 
importantly, we sought to identify the ways current realities 
could change, positively or negatively, in order to help 
decision makers understand and manage future outcomes. Our 
research and analysis-focused process included 120 interviews 
assessing budgets, market studies, and other data and surveying 
more than 200 high net-worth individuals who can afford current 
prices for suborbital flights.
    We used this data to develop our forecast and to describe 
future uncertainties and our assumptions about them. My 
testimony describes results of that study.
    Our study concluded that demand for SRV flights at current 
prices is genuine, sustained, and appears sufficient to support 
multiple providers. We estimate baseline demand, reflecting 
predictable trends that exist today, at about 400 to 500 seat 
equivalents each year, for people and for cargo. Our growth 
scenario sees that number nearly triple. Our constrained 
scenario sees it halved. Additional potential demand is 
possible from unknowns such as research discoveries, commercial 
applications, or a viral consumer response. Price reductions 
would also increase demand.
    The largest market by far in our analysis is commercial 
human spaceflight for individuals. We estimate it at more than 
80 percent of the total. Given current prices most of these 
individuals will be wealthy. Many will be from outside the 
United States.
    These individuals enable a new SRV industry with 
capabilities that can benefit researchers, educators, and 
others.
    Specifically, we identified five additional markets active 
in our ten-year forecast period. Basic and applied research, 
aerospace technology test and demonstration, satellite 
deployment, education, and media and public relations. Our 
baseline for these markets shows initial demand for about 30 
seat equivalents that grows to 130 annually. Our constrained 
scenario grows more slowly, and our growth scenario increases 
to nearly 400 seat equivalents, representing thousands of 
payloads.
    As of this moment purchases of SRV services in most of 
these markets have already begun.
    SRVs have unique capabilities for basic and applied 
research. We identified currently funded research areas that 
are better served by SRVs than by existing alternatives. We 
predicted some of the funding in these areas would shift to 
SRVs. These areas are atmospheric research of the poorly 
understood upper reaches of the atmosphere that affect weather 
and climate, suborbital astronomy to get access to infrared and 
ultraviolet observations from outside the atmosphere, 
longitudinal human research on space travelers to understand 
things like vascular and immune response to microgravity and 
acceleration, and microgravity research where the unique 
combination of SRV capabilities may energize the research 
community and attract new organizations.
    SRVs can also be used for test and demonstration of certain 
types of technology, and may also serve as launchers for small 
satellites, which are increasingly used for research.
    Finally, our analysis suggests SRVs may be widely used for 
STEM education. Student-built projects can fly to space and 
return, frequent launches aligned with academic calendars, and 
schools can likely afford SRV prices for small payloads. Based 
on analogous hands-on STEM programs, we estimate that after ten 
years as many as 600 K through 12 schools and more than 100 
universities could be flying small student payloads.
    SRVs will create a different kind of space transportation 
industry than we have seen before. This space marketplace will 
be heavily influenced by individual consumers with government 
potentially around a tenth of total demand. An important 
regulatory challenge is developing an effective approach for 
these unprecedented new dynamics.
    In closing, I would like to thank you for the opportunity 
to speak today, and I look forward to your questions.
    [The prepared statement of Ms. Christensen follows:]
    [GRAPHIC] [TIFF OMITTED] 75397.009
    
    [GRAPHIC] [TIFF OMITTED] 75397.010
    
    [GRAPHIC] [TIFF OMITTED] 75397.011
    
    [GRAPHIC] [TIFF OMITTED] 75397.012
    
    [GRAPHIC] [TIFF OMITTED] 75397.013
    
    [GRAPHIC] [TIFF OMITTED] 75397.014
    
    [GRAPHIC] [TIFF OMITTED] 75397.015
    
    [GRAPHIC] [TIFF OMITTED] 75397.016
    
    [GRAPHIC] [TIFF OMITTED] 75397.017
    
    [GRAPHIC] [TIFF OMITTED] 75397.018
    
    [GRAPHIC] [TIFF OMITTED] 75397.019
    
    [GRAPHIC] [TIFF OMITTED] 75397.020
    
    [GRAPHIC] [TIFF OMITTED] 75397.021
    
    [GRAPHIC] [TIFF OMITTED] 75397.022
    
    Chairman Palazzo. Thank you. I now recognize Dr. Stern for 
five minutes to present his testimony.

             STATEMENT OF DR. ALAN STERN, CHAIRMAN,

           SUBORBITAL APPLICATIONS RESEARCHERS GROUP

    Dr. Stern. Thank you. Chairman Palazzo, Congresswoman 
Edwards, and Members of the Subcommittee, thank you again for 
the opportunity to meet with you today.
    I am a planetary scientist, and I have used suborbital 
sounding rockets since the 1980s. I have been a Principle 
Investigator on numerous NASA missions, and I served, as you 
said, as Associate Administrator responsible for the Science 
Mission Directorate at NASA headquarters. I am the current 
Chairman of the Commercial Spaceflight Federation's SARG or 
Suborbital Applications Researchers Group.
    Mr. Chairman, in 1946 when the U.S. Army formed its rocket 
research panel to determine how researchers could best exploit 
the capabilities of captured German V-2 rockets, only a tiny 
fraction of the Nation's scientists were aware of the powerful 
impact that suborbital rockets could have on their research. 
After all, few scientists of that era had ever before had 
access to space launch capability of any kind.
    Yet barely a decade later rocket borne research had become 
so powerful a tool that it formed the centerpiece of 1957's 
landmark International Geophysical Year.
    In 2012, the space research and education communities and 
large parts of NASA and other federal research agencies are 
similarly unaware of the powerful opportunities that the new 
reusable suborbital vehicles can offer for education and for 
research. Today's analogies to V-2s in 1946 are strong.
    Early adopters like myself see transformational promise in 
these vehicles, primarily because they offer frequent access to 
space at low cost. Indeed, within a few years this industry is 
likely to provide the capability to fly hundreds to perhaps 
thousands of experiments annually and to do so at typical 
payload launch costs that are ten times or more lower than the 
1 to $2 million present day sounding rocket costs.
    These vehicles also offer other important benefits. For 
example, gentler rides for payloads than on suborbital sounding 
rockets, reducing design costs, the development of market-
driven, simple, rapid payload safety integration processes that 
lower barriers to entry for scientists and universities and 
corporations. The opportunity to fly larger payloads than we 
could normally fly on a sounding rocket, reduced experiment 
waiting times to flight going to the high-flight rates, and 
very importantly the opportunity to fly researchers and 
educators with their payloads.
    This capability is another game changer that will reduce 
experiment development costs and increase experiment 
reliability by eliminating the need for expensive experiment 
automation that has for too long been commonplace in space as a 
substitute for the researcher or the educator being able to be 
there themselves as in most scientific disciplines.
    These new vehicles offer something else that is also both 
new and revolutionary. That is the routine stepping stone 
capability to try out and develop research players and 
experimental techniques at low cost before they are brought up 
to the International Space Station. Just as in the minor 
leagues in baseball we try out players and techniques before 
advancing them to the majors.
    As a result of these numerous attractive attributes, I 
expect broad demand for commercial reusable suborbital vehicles 
in the following areas. Upper atmospheric research, space life 
sciences, technology testing for spaceflight, microgravity 
science, auroral, ionospheric, and space weather research, and 
an education and public outreach.
    As early evidence for the demand for these vehicles and 
what they are likely to generate in that demand, I point out 
that the number of scientists attending Next Generation 
Suborbital Researchers Conferences has doubled in the past two 
years, from about 200 in 2010, to over 400 this year. 
Researchers and educators are already voting with their feet.
    What these communities could use now are more funding 
opportunities with NASA and other agencies to exploit the 
coming capabilities of these vehicles.
    And finally, let me say that the primary regulatory 
uncertainties that I foresee for these new vehicles are those 
that might limit their ability to achieve high flight rates at 
low costs and to fly researchers and educators on those 
flights.
    I urge you to minimize these and other regulatory burdens 
on this new and highly-promising American industry, and I thank 
you for your time and for inviting my views.
    [The prepared statement of Dr. Stern follows:]
    [GRAPHIC] [TIFF OMITTED] 75397.023
    
    [GRAPHIC] [TIFF OMITTED] 75397.024
    
    [GRAPHIC] [TIFF OMITTED] 75397.025
    
    [GRAPHIC] [TIFF OMITTED] 75397.026
    
    [GRAPHIC] [TIFF OMITTED] 75397.027
    
    [GRAPHIC] [TIFF OMITTED] 75397.028
    
    [GRAPHIC] [TIFF OMITTED] 75397.029
    
    [GRAPHIC] [TIFF OMITTED] 75397.030
    
    [GRAPHIC] [TIFF OMITTED] 75397.031
    
    Chairman Palazzo. Thank you. I now recognize our next 
witness, Mr. Whitesides, for five minutes to present his 
testimony.

              STATEMENT OF MR. GEORGE WHITESIDES,

             CEO AND PRESIDENT, VIRGIN GALACTIC LLC

    Mr. Whitesides. Mr. Chairman, Congresswoman Edwards, and 
Members of the Subcommittee, I am honored to be here today.
    Virgin Galactic's goal is to become the world's first 
commercial space line. We have invested hundreds of millions of 
dollars into this business and into the American economy. Our 
prime contractor, Scaled Composites, has constructed our first 
space vehicles and is currently flight testing them as we 
prepare for commercial service. Our manufacturing joint 
venture, the Spaceship Company, is hard at work building our 
second vehicle set. Overall, this project has directly or 
indirectly employed over 1,000 people in the United States 
since its inception.
    As I continue my testimony, Mr. Chairman, with your 
permission I would like to share some video footage of our 
vehicles in flight, taken over California's Mojave Air and 
Spaceport and New Mexico's Spaceport America.
    Virgin Galactic was founded in 2004, to commercialize the 
technologies demonstrated by SpaceShipOne, the first privately-
built vehicle to safely carry human beings into space. When it 
landed, it not only earned the $10 million X PRIZE and a spot 
in the Air and Space Museum, it also served as evidence that 
private entities are capable of building and operating 
spaceships that can carry humans both safely and affordably.
    To date, Mr. Chairman, we have accepted $70 million in 
deposits, representing over $100 million in future business. 
Those financials are important but so is a different 
measurement. As of last week we have accepted deposits from 536 
individuals, which is more than the total number of people who 
have ever gone to space. We anticipate flying that many people 
within our first year or two of commercial service.
    Our system is proving to be an attractive platform for 
researchers and educators. Already we have accepted deposits 
from several customers in these areas, including universities 
as well as research institutions and from NASA itself. With a 
spacious cabin, relatively gentle gravity loads, frequent 
flights, affordable pricing, and a longer period of 
microgravity than many other platforms, we will offer an 
important tool to help innovators conduct significant science, 
advanced technology, and educate and inspire the next 
generation.
    We commend Congress and NASA for creating NASA's Flight 
Opportunities Program, which is playing a critical role in 
assuring that experiments are ready to fly as soon as the 
spaceships themselves are in service. As we prepare for 
commercial service, staff at both Virgin Galactic and Scaled 
Composites have been interacting with the FAA and in particular 
the Office of Commercial Space Transportation, or AST, for many 
years. We believe that the FAA and specifically AST are 
responsibly discharging their legislative accountabilities 
concerning suborbital spaceflight.
    Businesses like ours have a clear imperative to do all that 
we can to responsibly manage the risks associated with 
operating our vehicles. In our case many of our staff, 
including myself, will fly on our spaceship before any member 
of the paying public, and our founder, Richard Branson, will be 
on our first commercial flight. Our team includes a number of 
professionals with deep expertise in safely operating aerospace 
vehicles. This includes our Vice President of Operations, Mike 
Moses, who was responsible for the preparation and launch of 
the Space Shuttle's final 12 missions. Mike and other members 
of our team interact with AST on a regular basis, allowing for 
frank, two-way exchanges of information.
    In 2004, Congress determined that eight years of real 
flight data was a reasonable amount of time for a regulatory 
learning period, a value with the suborbital industry supported 
then and continues to support today. When it passed the most 
recent FAA Authorization Bill, the House of Representatives 
renewed the eight-year period. The Conference Bill extended the 
learning period for the scope of the FAA authorization itself, 
which runs until late 2015.
    We are pleased and appreciative that Congress took this 
action and look forward to working with both bodies of the 
legislature on the duration of this period in the next 
Congress.
    Moving forward, the regulatory uncertainty that has the 
biggest potential impact on our business is the concern that 
the learning period for our suborbital operations might be 
reduced. Already we are faced with the prospect that soon after 
we go into commercial operations, rules and regulations may 
change substantially, potentially disrupting those operations 
and our business. A stable regulatory environment is the best 
way to preserve America's status as the world leader for 
suborbital spaceflight.
    In closing, Mr. Chairman, I thank you for the opportunity 
to appear before you today. As we all remember Sally Ride this 
week, an American hero and a pioneer who opened the space 
frontier to women, Virgin Galactic seeks to build on her legacy 
by opening the space frontier to all. I look forward to 
answering any questions you might have.
    [The prepared statement of Mr. Whitesides follows:]
    [GRAPHIC] [TIFF OMITTED] 75397.032
    
    [GRAPHIC] [TIFF OMITTED] 75397.033
    
    [GRAPHIC] [TIFF OMITTED] 75397.034
    
    [GRAPHIC] [TIFF OMITTED] 75397.035
    
    [GRAPHIC] [TIFF OMITTED] 75397.036
    
    Chairman Palazzo. Thank you. I now recognize our next 
witness, Mr. Alexander, for five minutes to present his 
testimony.

              STATEMENT OF MR. BRETTON ALEXANDER,

                 DIRECTOR, BUSINESS DEVELOPMENT

                   AND STRATEGY, BLUE ORIGIN

    Mr. Alexander. Thank you, Chairman Palazzo, Congresswoman 
Edwards, Members of the Subcommittee. Thank you for the 
opportunity to testify this afternoon on behalf of Blue Origin. 
We appreciate the Committee's longstanding support of the 
development of space and commercial human spaceflight.
    Blue Origin was founded in 2000 by Jeff Bezos, the founder 
of Amazon.com, with the sole purpose of developing technologies 
and vehicles to enable human access to space at dramatically 
lower costs and increased reliability. The ultimate goal is to 
enable more people to fly in space to be able to do more 
things, whether for science, exploration, or simply adventure 
travel.
    We believe in incremental development, beginning with 
suborbital vehicles before moving onto orbital systems. Our New 
Shepard suborbital system will take three or more astronauts to 
100 kilometers altitude where they will experience several 
minutes of microgravity, be able to see the darkness of space, 
and view the curvature of the earth. Key elements of this 
suborbital architecture, a reusable vehicle with vertical 
takeoff, vertical landing rocket, separable Crew Capsule with a 
pusher escape system, are also key elements of our orbital 
architecture designed to take people to low-earth orbit and the 
International Space Station.
    Let me now address the markets for suborbital spaceflight. 
First, we believe that people are the game-changing element for 
spaceflight. We can't tell you all the activities that people 
will do in space, but we are certain the number of people and 
activities will increase greatly as the cost comes down and 
safety improves.
    Research and science is a valuable secondary market. We are 
poised to offer the research community flexible, repeated 
access to space on dramatically-accelerated timelines for a 
fraction of the cost. Research tools once limited to a few 
investigators will be within reach of a wide array of federal 
agencies, industry, and even college and high school students.
    These suborbital systems have significant promise for STEM 
education for our Nation's youth, with routine flights, the 
ability for schools to tuck small, untended experiments and 
payloads along for the ride is within reach, giving hands-on 
space experience previously unimaginable.
    Other markets for suborbital spaceflight are likely to be 
developed that we cannot yet image. Who would have thought that 
ten years ago there would be over 500,000 apps for something 
called a smart phone? The barries to entry to develop an app is 
minimal. There is no need to spent billions on developing the 
network or the phone itself. Similarly, scientists, school 
kids, and others can develop apps for suborbital spaceflight at 
little to no upfront cost compared to traditional spaceflight 
activities. The sky is truly the limit.
    Let me now address the regulatory framework. Commercial 
spaceflight is in its infancy, and there is no one-size-fits-
all approach to regulation. Each company is developing a 
different system. Blue has a vertical takeoff, vertical landing 
vehicle with a capsule that returns under parachute. Others 
have vehicles with wings and wheels. What is appropriate for 
one type of vehicle may not be appropriate for others.
    The current question of how and when the FAA will regulate 
the safety of spaceflight participants is the greatest 
uncertainty affecting the development of this industry. I want 
to take this opportunity to thank you for the passage last year 
of an extension of the learning period to the full eight years 
from the date of the first paying passenger flight as per the 
original intent of the CSOA. While the final bill extended this 
only until October, 2015, we appreciate Congress's recognition 
that the learning period serves a valuable purpose and will 
work with you to extend the learning period to at least eight 
years or longer.
    We believe the best path forward would be to continue the 
informed consent approach indefinitely, allowing individuals to 
make their own decisions on how best to manage their own safety 
and inherent challenges of spaceflight.
    Regarding our interaction with the FAA and the development 
of regulations, there are two primary ways in which we interact 
with the FAA. The first is through the formal NPRM regulatory 
process, and the second is through our individual applications 
for permits and licenses and FAA oversight of our flight 
activity. We have found that on the whole both have worked 
well. The FAA has shown itself receptive to real world input as 
data is being gathered and flight activities continue.
    We look forward to the FAA's planned monthly telecoms as an 
opportunity for dialogue between the FAA and industry, allowing 
for open and frank discussions about technical design and 
safety.
    In conclusion, we believe suborbital spaceflight offers 
great promise and opportunity for the Nation's economy, 
scientific research, and STEM education. As private commercial 
developers, we are not looking just to government but are 
investing private funds to enable this bright future. NASA and 
other government agencies can capitalize on this private 
investment and take full advantage of these new capabilities.
    Thank you for the opportunity to be here today, and I look 
forward to your questions.
    [The prepared statement of Mr. Alexander follows:]
    [GRAPHIC] [TIFF OMITTED] 75397.037
    
    [GRAPHIC] [TIFF OMITTED] 75397.038
    
    [GRAPHIC] [TIFF OMITTED] 75397.039
    
    [GRAPHIC] [TIFF OMITTED] 75397.040
    
    [GRAPHIC] [TIFF OMITTED] 75397.041
    
    Chairman Palazzo. Thank you. I now recognize our next 
witness, Mr. Nelson, for five minutes to present his testimony.

                STATEMENT OF MR. ANDREW NELSON,

            CHIEF OPERATING OFFICER, XCOR AEROSPACE

    Mr. Nelson. Thank you, Chairman Palazzo, Congresswoman 
Edwards, and Members of the Subcommittee. Thank you for this 
opportunity to speak about the reusable suborbital markets and 
how this industry can be a catalyst for new jobs and economic 
growth given an efficient government and appropriate regulatory 
stance. It is my belief that suborbital reusable launch 
vehicles are critical to America's future innovation-led 
economy, the education of our children, and our national 
security because reusability is the transformative step needed 
for affordable and responsive space access, which is an enabler 
of these noble objectives.
    XCOR's long-term vision of the future space industry starts 
with the premise that there are robust opportunities for self-
sustaining, profitable space businesses in low-earth orbit and 
near-earth resource exploration. But numerous challenges must 
be solved to realize this vision, and failures will occur along 
the way.
    But free of regulatory uncertainty and excessive 
constraints, government can enable industry to once again 
embrace the risk-taking spirit that built our country. The 
potential payoff is similar to the railroads, the air 
transportation system, or the internet. In other words, the 
next great American-led trillion dollar enterprise, the 
commercial space enterprise.
    The first technical hurdles to overcome are fully reusable 
propulsion systems and thermal protection systems, and we 
believe suborbital RLVs are the ideal proving ground for these 
technologies. This has been XCOR's focus for over 12 years, and 
it will continue.
    XCOR was founded by individuals who dreamt of going to 
space and pursue their dreams, giving up lucrative jobs in a 
lot nicer places than Mojave. In 1999, after they were laid off 
from an entrepreneur rocket adventure, they chose to follow the 
ethos that Henry David Thoreau expressed when he said, ``Go 
confidently in the direction of your dreams and live the life 
you have imagined.'' And in so doing have arguably created one 
of the most innovative and determined aerospace companies the 
U.S. has seen in the last 50 years.
    We XCORians have pursued the American dream without benefit 
of great personal wealth but with significant determination and 
character, and we are now building reusable rocket engines for 
ourselves and others like United Launch Alliance, and we are 
building the Lynx for reusable suborbital vehicle that is 
scheduled to start flight tests in the new year.
    In two years XCOR and our partners have sold over 200 
flights on the Lynx, and 50 of these sales have come in the 
last three months, demonstrating increasing sales velocity as 
we near first flight and the incumbent network effects you see 
in most markets. Our typical buyers have net investible assets 
of 1 to $2 million or more but many less wealthy enthusiasts 
are buying also, and many people are buying multiple flights. 
Industry and the research community are also buyers, and we 
project these markets to eventually surpass the personal 
spaceflight markets.
    For over ten years XCOR has played a leading role within 
the industry by actively collaborating with the FAA. For 
example, we helped create the definition of suborbital rocket, 
was instrumental in crafting and leading the campaign to pass 
the first Commercial Space Launch Amendments Act in 2004, and 
XCOR has direct and productive contacts with FAA/AST staff in 
Southern California, Florida, Washington, DC, and elsewhere. We 
believe that Congress should enable the FAA to move more staff 
into the field where operations are occurring so we can 
facilitate the improvement in safety.
    In earlier testimony you heard others speak of the eight-
year learning period, and we, too, support the restoration of 
full learning period starting with the first commercial 
suborbital human spaceflight for revenue. At the same time XCOR 
strongly supports a new FAA initiative to use its existing 
authority to engage with industry on safety concerns, 
experiences, and best practices.
    We are greatly concerned with the potential expiration of 
learning period because this could lead to unfettered 
regulation based on paper analysis and speculation rather than 
actual flight data and experience. Recent statements by at 
least one senior elected official have suggested the current 
licensing regime may be repealed in the final months of this 
Congress, and any sudden such changes or reliance on 
speculative regulations would have a chilling effect on the 
industry and the thousands of jobs we represent collectively 
and the jobs we plan on creating in the near future.
    So such a change would also cripple our chances to be 
competitive internationally. The industry and FAA have been 
successful in persuading foreign governments to consider 
adopting the U.S. system of regulation, licensing, and informed 
consent. Suddenly changing from this environment to a 
speculator regulatory regime will cause countries to forego the 
adoption of the U.S. system and create local rules, and local 
rules can create an uneven playing field for us in those 
foreign markets, impacting jobs in various states represented 
by the Members of the Committee.
    Another impediment to export markets is the U.S.-designed 
and built manned suborbital RLVs is the ITAR. Their strong 
international interests and demonstrated demand for suborbital 
RLVs, however, ITAR causes inherent uncertainty with customers 
which inhibit U.S. job creation.
    We encourage the Subcommittee to take a leadership role to 
explicitly identify manner suborbital RLVs as a Commerce 
Control List item and open up the free world to U.S. commercial 
space products, services, and competitors.
    I thank the Committee for the opportunity to present these 
thoughts for the record, and I look forward to your questions.
    [The prepared statement of Mr. Nelson follows:]
    [GRAPHIC] [TIFF OMITTED] 75397.042
    
    [GRAPHIC] [TIFF OMITTED] 75397.043
    
    [GRAPHIC] [TIFF OMITTED] 75397.044
    
    [GRAPHIC] [TIFF OMITTED] 75397.045
    
    [GRAPHIC] [TIFF OMITTED] 75397.046
    
    [GRAPHIC] [TIFF OMITTED] 75397.047
    
    [GRAPHIC] [TIFF OMITTED] 75397.048
    
    [GRAPHIC] [TIFF OMITTED] 75397.049
    
    [GRAPHIC] [TIFF OMITTED] 75397.050
    
    [GRAPHIC] [TIFF OMITTED] 75397.051
    
    Chairman Palazzo. Thank you. I now recognize our final 
witness, Dr. McCandliss, for five minutes to present his 
testimony.

            STATEMENT OF DR. STEPHAN R. McCANDLISS,

        RESEARCH PROFESSOR, THE JOHNS HOPKINS UNIVERSITY

    Dr. McCandliss. Mr. Chairman, Congresswoman Edwards, and 
Members of the Committee, thank you for inviting me to answer 
your questions on suborbital research investigations regarding 
decision metrics, infrastructure, and capability requirements, 
student involvement, and future directions for suborbital 
research.
    Regarding the questions on decision metrics, I would like 
to point out that scientific peer review panels are for NASA 
are assembled by each of the four science divisions; geospace, 
heliophysics, planetary, and astrophysics to conduct research 
from suborbital platforms.
    Panels look for some way cool advancement of their 
scientific capabilities that is enabled by some new technology, 
and they seek to build a technically-adept workforce. Relevance 
to overall NASA strategic plan is a requirement. For 
heliophysics investigation that might be a new high resolution 
imager or for astrophysics it might be a device that can image 
planets about nearby stars.
    My own work, we are building a new high-efficiency far 
ultraviolet spectrograph that is six times more sensitive than 
anything we have flown before, and it can observe more than 40 
targets at once in the area of the size of the moon.
    To pass the muster of the highly-oversubscribed peer review 
there has to be some capability of the chosen vehicle, usually 
the altitude, which provides the only way to do the research. 
If you can do it from the ground, you are not going to fly.
    Regarding suborbital infrastructure and capabilities, the 
commercially-operated launch provider, NSROC, run by orbital 
sciences, with oversight from the NASA Sounding Rocket Project 
Office, provides a staple of 11 different launch vehicles to 
experimenters picked by peer review, and they also provide a 
host of very mature modular subsystems to fly, to provide 
missile flight safety, de-spin and separation, high-speed 
telemetry, altitude control, recovery, fine point and command 
uplink for real time control of the payload.
    Experimenters have access to full integration and test 
facilities at Wallops in Virginia, including ground station, 
shaker table, spin balance, and moments of inertia 
measurements. In addition, the NSROC Sounding Rocket Project 
Office holds project management reviews, and all these things 
are necessary to ensure that things will be carried out safely.
    The message is one-size-doesn't-fit-it, as we heard 
earlier. Some experimenters want to fly as high and as long as 
they can. Some want to fly tailored trajectories at specific 
altitudes. It all depends on the science. For our observations 
I require a vehicle that will provide 400 seconds of time above 
100 kilometers with a precision real-time pointing system so 
the student can make target adjustments during flight.
    Student participation in sounding rocket research is a 
longstanding hallmark of the program. Some would argue it is 
the most important product. Students become an integral part of 
the science and technology they develop. They work in an 
apprentice mentor relationship with senior researchers, where 
much know-how is passed on in oral form from one generation to 
the next much like a guild of old spaceship builders. And there 
is the slide example.
    In our astrophysics program we emphasize hands-on 
experience with optics, mechanics, electricity, magnetism, 
vacuum systems, computer programming, data acquisition, design, 
testing, calibration, integration, trouble shooting, mission 
planning, communication, and publication of results. Within the 
short tenure of a graduate student, they become scientists with 
a fundamental regard for systems engineering and are highly 
prized by the aerospace community.
    Many of the Ph.D. and undergraduate students go on to fill 
key roles in the development of instrumentation for a host of 
space-based missions. However, as of late, excuse me. The 
number of sounding rocket students receiving Ph.D.'s has fallen 
as the displayed example shows. It is directly correlated with 
the decreasing number of lost opportunities over the past 40 
years and symptomatic of a reduced production of technically-
adept leadership.
    Regarding future challenges and opportunities, the 
challenge for developing reusable suborbital vehicles as 
meaningful research platforms will be to identify those 
appropriate niche markets, both commercial and scientific, 
where human-in-the-loop or an in-situ access module provides 
some unique capability that will pass the muster of the peer 
review. From my perspective the current crop of reusable 
vehicles on the books falls well short of our requirements.
    My astrophysics sounding rocket colleagues and I agree that 
generally new funding opportunities to advance the core 
capabilities of the expendable sounding rocket community are 
more likely to generate meaningful scientific, technical, and 
programmatic impact for future space-based missions run by 
NASA, DOD, and even private concerns.
    There is a logarithmic gap in the launch portfolio between 
the $3 million it costs to develop a sounding rocket and $200 
million it costs to launch an Explorer mission. The missing 
piece is a commercial launch capability in the $10 million 
range that is capable of placing 250 to 500 kilograms into low-
earth orbit, Virgin Galactic Launcher-1, or the Falcon-1 from 
SpaceX.
    Establishing this capability can reduce risk and cost for 
future Explorer missions, Flagship missions, to reduce 
development times for increasing technology readiness levels, 
and most importantly, by expanding the technically-adept 
workforce. There is no substitute for experiment, experience. 
Expanding the suborbital program and filling the logarithmic 
gap in the launch portfolio is key to maintaining our 
leadership in space science.
    Thank you.
    [The prepared statement of Dr. McCandliss follows:]
    [GRAPHIC] [TIFF OMITTED] 75397.052
    
    [GRAPHIC] [TIFF OMITTED] 75397.053
    
    [GRAPHIC] [TIFF OMITTED] 75397.054
    
    [GRAPHIC] [TIFF OMITTED] 75397.055
    
    [GRAPHIC] [TIFF OMITTED] 75397.056
    
    [GRAPHIC] [TIFF OMITTED] 75397.057
    
    Chairman Palazzo. Thank you, and I thank the panel for 
their testimony.
    I now recognize myself for five minutes for questions.
    My first question is pretty much a two-part question. It is 
going to be directed to Mr. Whitesides, Mr. Alexander, and Mr. 
Nelson.
    How does the SRV industry currently collaborate with the 
Federal Aviation Administration in developing draft guidance 
for test flights and current operations? And what is the proper 
role for industry in developing future regulations?
    Mr. Nelson. George and I have talked on so many panels 
together, I think we could probably finish our sentences a lot 
of times. So we collaborate with FAA on draft test flight 
processes and procedures much as the rest of the industry. It 
is important for us to have the integration of local staff so 
they can understand what we are planning to do. There is 
regular meetings and especially through the licensing process, 
they want to understand how our vehicle was built and designed, 
as well as how we are intent on testing it.
    Mr. Alexander. I think I would like to add that we have got 
a very good working relationship with the FAA. Their staff are 
knowledgeable, but what they need is access to our plans and 
procedures, and that comes through that regulatory interaction 
through the process of applying for experimental permits and 
licenses and through the oversight of the activities that are 
regulated by the FAA.
    That interaction is the most important piece in terms of 
both understanding from industry's side how things are operated 
but for the FAA to understand what is going on in the industry 
such that the industry provides a real education opportunity 
for them to see what is really going on.
    So the back and forth, in order to develop regulations 
later, to develop draft guidance, to develop test procedures 
and things like that, they need to see what is actually going 
on in industry, and it is through that application process that 
they get that back and forth.
    We do think that the FAA is setting up a monthly telecom to 
have a dialogue with industry. That is going to be another 
opportunity for industry collectively to interact with the FAA 
to talk about technical details. We think that that is going to 
be very valuable as well.
    Mr. Whitesides. Mr. Chairman, in the interest of time, I 
will leave it with them.
    Chairman Palazzo. Nothing to add? Thank you, and this is 
pretty much for all you all again, so maybe you all decide who 
is going to go first.
    When will the companies begin commercial operations, and 
what type of flights will be the first to produce revenue for 
your company?
    Mr. Whitesides. Why don't I start? Mr. Chairman, our goal 
is to start powered flight by roughly the end of the year and 
to go into commercial operation by the end of 2013. So we are 
looking at roughly an 18-month timeframe for the start of 
commercial operations.
    We have always base lined starting flying with commercial 
customers with our customers who in some cases have been 
waiting to fly for several years. We have recently talked about 
inserting some of the NASA payloads that we have been 
contracted to fly earlier on. So that is in discussion, but our 
baseline is to start with our commercial customers.
    Mr. Alexander. We are still in the development phase for 
our new Shepard suborbital flight system, and as we get deeper 
into our flight test program we will start accepting 
reservations and then having plans for when we first fly. We do 
think that passengers and scientific research will be the first 
revenue-generating activities.
    Mr. Nelson. We hope to commence our flight test program the 
end of this year, early next year with a flight test program 
that would end late 2013, and if things go as planned, so we 
will be at the end of 2013, flying paying participants.
    We do expect that there will be some science missions that 
are unmanned, that are automated that could be flown 
potentially earlier than that as well.
    Chairman Palazzo. Ms. Christensen, your forecast paints a 
rosy picture for the future of this industry. Can you tell the 
Committee why we should believe there is a real market out 
there for these vehicles, and what is your level of confidence 
in the demand forecast?
    Ms. Christensen. Mr. Chairman, my objective in 
characterizing the industry, my team's objective has been to be 
as data driven and accurate as possible. We are an independent 
firm. Our business model is to provide rigorous analysis. We 
have released a 100-page report that identifies the many, many 
dynamics of the market that we identified, the uncertainties, 
the assumptions that we have made, and where those assumptions 
might vary.
    I will note that our findings are very much aligned with a 
broad dataset derived from interviews and research, and we have 
laid that out as fully as possible.
    Chairman Palazzo. Thank you. I am out of time.
    I now recognize Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman.
    As you know, I have been both a healthy skeptic of the 
industry and the potential but also quite curious, and I 
haven't made it any great secret that I would want to be one of 
those, I want to be number 537 if there is room. It does seem 
to me that on a Congressional salary it is highly unlikely that 
I could afford the deposit.
    But it raises a question, Ms. Christensen, about the 
profile of the individuals who want to leave those deposits and 
fill out this industry because they are clearly high net-worth 
individuals because they have the financial capacity for that, 
but it seems to me that we are so accustomed to getting on 
boats and planes and our automobiles, and there is a comfort 
level attached to that, and this is somewhat different and 
experimental, and so what happens with those individuals that 
you think will fill out the industry if the flight itself 
doesn't kind of meet that comfort zone for people who are not 
necessarily scientists and researchers but they just want to 
experiment a little bit?
    Ms. Christensen. We identified that question of how 
consumers, how spaceflight participants will actually respond 
to the experience as one of the major uncertainties that we are 
looking at. I can tell you that based on the survey that we 
did, and we focused on high net-worth individuals, most of 
those individuals viewed spaceflight as either extremely or 
somewhat inherently risky, and many of the individuals that 
were interested in taking suborbital flights had that view as 
well.
    So to the extent that that speaks to that question, that 
population does appear to have a sense that that is part of 
the--and we also in our survey articulated to them elements of 
the experience, such as what it might be like, both the 
positive and the, you know, you might feel ill, and so that was 
part of the process of informing survey respondents in getting 
their answers.
    Ms. Edwards. And Mr. Whitesides, if you could help me 
understand, in any of these sort of risky behaviors, there is a 
potential that there is a mishap that is going to happen. I 
mean, that happens with cars, and I wonder if your company or 
others have established any plan as to how you will conduct 
investigations or determine root causes should there be a 
mishap, and what do you think the relative role of the Federal 
Government should be in the event of such an occurrence? And I 
think, for example, of an agency like the National 
Transportation Safety Board. Is that something in terms of the 
Federal Government that we have to stand up to have some 
capacity for investigation that it doesn't now have with 
respect to spaceflight?
    And I know that there is, there clearly is an expression of 
concern about a regulatory environment that might constrain 
development, but what is the right level of regulation that the 
Federal Government has to engage itself in, in order to oversee 
what is in essence a consumer-driven market?
    Mr. Whitesides. To start with the first question, 
Congresswoman, I think it is a great question, and the answer I 
think is that in terms of mishaps it depends on the type of 
mishap. So for very serious mishaps, the NTSB, I believe, will 
work with AST, and NTSB has assigned an investigator who is 
becoming proficient in essentially our sector. He has come out 
to Mojave, he has met with many of our companies, and I think I 
speak only for myself but I view him as really a very highly-
skilled individual who seems to understand the issue.
    So that engagement has begun. I think AST also has its own 
set of plans and for a serious mishap we, I think, would 
obviously defer to the NTSB's leadership of that investigation.
    For other mishaps, which frankly occur, lesser mishaps, you 
learn things continually through the flight test program, some 
of those I think the flight test team can handle themselves. 
They will just learn something. It is a minor issue, and that 
is the point of flight test is to improve the vehicles to the 
point that we are comfortable flying customers.
    Part of the reason that we have certainly taken many years 
to prepare these vehicles is because we have been in flight 
test for years, and we will not fly people on these vehicles 
until we feel comfortable that it is the time to do so.
    I think in terms of your last question, I think the 
government and in particular the Science Committee, who 
essentially crafted the 2004 amendment to the CSLAA, developed 
the right posture for this moment of time, and I think we 
obviously support that at this time.
    Ms. Edwards. Mr. Chairman, if I could just ask a final 
question of Dr. McCandliss, and it actually has to do with the 
scientific environment. It is tough for me to imagine how you 
balance having a sort of sterile, more laboratory environment 
with also commercial passengers that satisfies the needs that 
scientists have to do research. Is that a concern of yours?
    Dr. McCandliss. Yes. For our own purposes we require to be 
outside the cabin. So being inside the cabin would not be where 
I would want to be, I mean, we conduct research essentially in-
situ. So it is incompatible really with the human spaceflight 
aspect.
    Chairman Palazzo. Before moving on if I could just ask Ms. 
Christensen, again, on part two of my question, on your 
industry forecast, what is your level of confidence in the 
demand forecast?
    Ms. Christensen. My level of confidence is strong in our 
baseline forecast. We built that up using a very substantial 
array of data through critical lens. There are certainly 
uncertainties embedded within that ranging from consumer 
response to research outcomes and so on, but just as a 
calibration note, I will say that our baseline of about 4,500 
seat equivalents, you can look at that in light of the number 
of sold reservations to date, which is about 925.
    So that as a calibration point I think is indicative of 
that it is a realistic forecast.
    Chairman Palazzo. Thank you.
    I now recognize the gentleman from Texas, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Let me direct a couple of questions to Mr. Whitesides, Mr. 
Alexander, and Mr. Nelson. You all mentioned a while ago, Mr. 
Whitesides for Virgin Galactic, that you expect to be in 
commercial operations in about a year and a half. Mr. Nelson, 
you said the same things about XCOR. Mr. Alexander, you didn't 
give a specific time, but I gather you are about a year behind 
that or 2-1/2, three years away from commercial operations?
    Mr. Alexander. I would say we are later than what you heard 
from the others. Yes.
    Mr. Smith. Okay, and Mr. Whitesides, you had over 500 
deposits, I think, Mr. Nelson, over 200, and Mr. Alexander, you 
were on the cusp of getting them.
    I guess my first question is this. In regard to your 
revenues, what percentage of your revenues do you think or 
expect or project to come from paid passengers versus 
scientific research? Mr. Whitesides?
    Mr. Whitesides. Congressman, I believe that certainly the 
initial bulk of the market, I think, is in the individuals.
    Mr. Smith. Paid passengers. Okay.
    Mr. Whitesides. Yeah. For us at least.
    Mr. Smith. Mr. Alexander?
    Mr. Alexander. I would agree with that, that people is the 
real market. We believe that the research market is secondary, 
but we are likely to fly research, you know, activities before 
we fly people.
    Mr. Smith. Okay. Mr. Nelson?
    Mr. Nelson. Initially we see the participant market being 
the driver, however, we do see the research market, especially 
industrial research, surpassing that market, we feel 4 or five 
years in, as the value proposition is known and becomes known 
to industrial players outside the government market.
    Mr. Smith. Okay. Now, you have two passengers, I think, Mr. 
Alexander has three, Mr. Whitesides, eight, two are pilots, I 
think, and of the two, Mr. Nelson, with XCOR, one is a pilot. I 
guess on a scale it looks like that Virgin Galactic is going to 
have more revenue just on the basis of more passengers, but 
when do you project to make a profit, Mr. Whitesides?
    Mr. Whitesides. We expect to be cash flow positive within 
about a year of the start of commercial operations.
    Mr. Smith. Okay. Good, and Mr. Nelson?
    Mr. Nelson. On a GAP basis as well as regular accounting, 
we are profitable last year. We have additional revenue streams 
from other parts of our business. We hope that occurs again 
this year.
    Mr. Smith. But as far as commercial space.
    Mr. Nelson. Commercial space, we expect in the first 12 
months to be profitable.
    Mr. Smith. Good. I hope you are right and wish you well in 
that regard.
    Let me go to the FAA for a minute. You asked--answered a 
question a while ago about your relationship with the FAA, but 
my question is this. What FAA regulations are of most concern 
to you?
    Now, Mr. Whitesides, you sounded like a while ago that you 
were okay with the current regulations. You were worried about 
the future new changes in regulations, but in general, what 
regulations, present or future, are of most concern to you?
    Mr. Whitesides?
    Mr. Whitesides. Congressman, you captured it exactly, in 
fact. We believe that the current regulatory posture of AST is 
a good one, and our preference would be to maintain the 
original eight-year intention of Congress.
    Mr. Smith. Okay. Great. Mr. Alexander?
    Mr. Alexander. We completely agree. We believe that the 
informed consent approach that this committee originated in 
2004, really allows the individual to make the choice as to 
what level of safety or what level of risk they want to accept. 
Just as someone who climbs a mountain has a choice of whether 
to do that or not.
    Mr. Smith. Okay. Mr. Nelson?
    Mr. Nelson. I have nothing more to add. They said it 
perfectly.
    Mr. Smith. Last quick question is this. Oh, is my time up? 
It is not up. Last quick question is this. How do you view 
yourselves, the three of you all who are about to engage in 
commercial operations, do you see yourself as competitors, as 
rivals, and if you see yourself as rivals, do you also see that 
each of you in your own way is adding sort of a value added to 
the enterprise and to the overall commercial operations in 
space?
    Just in reverse order. Mr. Nelson first.
    Mr. Nelson. I have been asked this question before, 
Congressman, and the current stage we are in is coopetition. We 
are competitors, but we also have to cooperate. It is a very 
early stage of the industry, and so things like regulatory 
frameworks and this sort of thing we are in dialogue with 
through the Commercial Spaceflight Federation and the FAA.
    But, yeah, certainly this is a competition, but we have 
very different value propositions, very different experiences. 
Just like going to Disney or someplace where you have six 
roller coasters you want to ride all six roller coasters, and 
we are seeing that with our customer base.
    Mr. Smith. And that is the value added strength in numbers 
maybe?
    Mr. Nelson. Absolutely, and certainly we have--I have said 
many times that we are very happy that Sir Richard Branson 
stepped into this marketplace because to the public face that 
was a wonderful thing. It made it acceptable to say I want to 
fly to space.
    Mr. Smith. Okay. My time is up, but, Mr. Whitesides, real 
briefly if you can give your view of that.
    Mr. Whitesides. I think on a personal basis we view each 
other as brothers in arms doing historic work and obviously 
once we go into commercial operation, then we will compete like 
any good capitalists.
    Mr. Smith. Okay. Good. Thank you, Mr. Chairman.
    Chairman Palazzo. Thank you. I now recognize the gentleman 
from California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very, very much, Mr. Chairman. 
Yes. That last question was really pretty interesting, Lamar. 
Nobody said robber baron or bureaucrat so I am glad to hear 
that those two mindsets has not dominated your industry. I 
think it is fascinating that we do, your industry now is being 
heralded as a potential trillion dollar, new trillion dollar 
enterprise for the future. It wasn't that way back in 2004, 
when we were working on the Commercial Space Act, and let me 
note that informed consent was just mentioned. Getting that 
principle established for this industry was a horrendous task. 
I mean, this Congress went--that was an issue that almost 
prevented the development of this new trillion dollar 
commercial industry, and it took a lot to get our colleagues to 
accept that. There were people who were skeptical about it as--
and by the way, I don't think you are skeptical. I think that 
you are going to be the first one on that rocket. I know I am 
not skeptical, but I wouldn't go up there on one of those 
rockets. I will stay on my surfboard, thank you.
    About your industry, how much of your industry is based on 
technology that was developed for the American Space Program, 
and how much of it is new that you are putting into this 
program yourself? How much new technology is coming from your 
enterprise? How much of it was based on things that the 
government developed for NASA over the years?
    Mr. Nelson. From an XCOR perspective the key parts of our 
technology we developed ourselves, and in fact, we have relied 
much more on the automotive industrial base to make the engines 
fully reusable and to be able to last thousands and thousands 
of rocket flights.
    Mr. Rohrabacher. Uh-huh.
    Mr. Nelson. Now, granted, we all stand on the shoulders of 
great individuals in people and the organization of NASA, and 
but some of the core key technological developments were done 
internally or----
    Mr. Rohrabacher. And the real things that makes this, that 
makes your industry possible had actually been developed 
without a direct federal subsidy. Is that correct? Or I am not 
saying running the business but in terms of developing the 
shape of your craft and the design and the whole concept, or am 
I wrong there?
    Mr. Whitesides. You are correct, sir. Certainly in our case 
our technology is primarily based off the SpaceShipOne Program, 
which was financed by Paul Allen and, you know, to date our 
entire program has been privately funded.
    Mr. Rohrabacher. So we have a tremendous new industry that 
basically has emerged based on the enterprise and the 
creativity of a group of profit-seeking entrepreneurs as 
compared to, for example, I understand there was very little 
government involvement in your enterprise, but there was a lot 
of government involvement in the Volt. Wasn't--the recent car 
and so we are lucky we didn't have the government having the 
same kind of influence on you industry that it had on the 
development of that type of automobile.
    Let me ask you a little bit about suborbital space and some 
of the challenges that you face. I see there is technical 
challenges, which you are moving forward on. We are trying to 
handle the regulatory channels, challenges now, and this is 
just as big a hurdle as the technology challenges, and then the 
financial and the market challenges are the things that you are 
going to have to face as entrepreneurs as any other 
businessmen.
    But right now if we don't have the right type of regulatory 
and don't continue with some of the leeway that we gave you in 
the Commercial Space Act of 2004, would you say that that would 
be a death blow to your industry, or would this just a setback, 
or might it be positive?
    Mr. Alexander. I appreciate the question. I think if we 
were to have imposed today's aviation regulatory environment on 
the Wright Brothers, they never would have gotten off the 
ground, and that is the big fear, that we will take all the 
lessons learned but take them in the wrong way and impose 
strict regulations that don't take into account the changing 
way of doing human spaceflight that this industry represents.
    Mr. Rohrabacher. That was a very good answer. I have got a 
couple seconds left, and I would just like to note that in two 
hours if your industry is successful, in about two hours we can 
be on the opposite side of the world. Eventually we are going 
to have a system which can deliver passengers to the other side 
of the world in two hours or packages. That seems to me to be 
something that has tremendous potential for benefit. It also 
would lead to cheaper, it may lead us to a cheaper, as you have 
already mentioned, way of delivering satellites into orbit, and 
I wonder if we all remember that Lindberg got a contract for 
delivering the mail and eventually it helped him then as a 
private operation to show, to build a plane that went across 
the Atlantic.
    And so there is just a great deal of exciting things that 
lie ahead for your industry, and we are counting on you, but we 
need you back here to make sure that we know what we need to do 
so we are not in the way.
    So thank you very much, Mr. Chairman.
    Chairman Palazzo. You are welcome, and for the panel's 
information we are going to go into a second round of 
questions. Everybody is agreeable to that?
    Okay. Dr. Stern, I know you have been quiet over there, so 
we have got one just for you. What is the necessary price point 
at which K through 12 STEM educators could begin to use SRVs in 
their curriculum?
    Dr. Stern. Well, that is a great question. As you know, the 
primary barrier to schools using spaceflight have been the long 
time it takes to fly things. A lot of things that happen in the 
Shuttle Program, for example, a sixth grade class would start 
it, and they would be in college by the time some other sixth 
grader was carrying it out, and then the prices were so high 
that it just wasn't within reach of the normal school system.
    In these vehicles, however, the price points are quite low. 
If you take, for example, George's company's cost of $200,000 
to fly an individual. You say I want to fly a shoebox-sized 
experiment, say it weighs a pound, for a class, then that ratio 
of $200,000 to one pound would cost, it is about $1,000, which 
is quite affordable. The school could have a car wash, a bake 
sale, what have you, and afford to have the students fly 
something in space, and that is really revolutionary in terms 
of the access, and that is one of the reasons that educators 
are so excited about this industry is because they are going to 
get access to space on rapid time scales and at costs they can 
afford.
    Chairman Palazzo. How soon do you think we will actually 
see secondary students engaging in these types of scientific 
projects?
    Dr. Stern. I think you will see that very shortly after the 
commencement of commercial activities, but it is really up to 
the individual companies to make their case to the school 
systems around the country that they are open for business.
    Chairman Palazzo. I mean, because it is just so important, 
yes, especially kids at that age to get them excited about 
science, technology, engineering, math. So hopefully they will 
just embrace that dream and carry it out and make a career out 
of it, which will also help us become more competitive with 
some of our global competitors.
    My next question is for Dr. Stern and Dr. McCandliss. How 
will research universities benefit from these new vehicles, and 
could we see the number of undergraduate students that fly 
their own experiments grow as a result of cheaper options for 
suborbital flights?
    Dr. McCandliss. Yeah. The more flights you have, the more 
opportunities you have. The question will become where will the 
funds come from to build the instrumentation. The cost of 
launch is really a small part of what it costs to develop the 
scientific instrument and fly it on a launch vehicle. There are 
costs associated with engineering, design, development, 
testing, and then ultimately integration with payload.
    So who is going to bear those costs? That is the question.
    Dr. Stern. Mr. Chairman, if I might add, I think we have to 
wrap our heads around a different way of doing business when we 
think about suborbital. Just like mainframe computing, 
spaceflight has been very rare since its inception, and just 
like PC computing, it is about to become routine.
    So when Steve and his colleagues and individuals in my 
community typically think about spaceflight, we think about 
inventing a new experiment. Well, that is not the way to think 
about it in suborbital. You want to think about an individual 
experiment that in an educational sense does a good job, flying 
again and again and again, being handed from school to school 
to school every day of the year so that you divide that cost by 
365 days in the year or by many school systems all performing 
the same experiment the way that we all used to do classic 
physics experiments as undergraduates, and we didn't invent new 
experiments. We carried out the cookbook, and in that mold 
where private industry develops or universities develop 
curriculum experiments that get handed from student to student 
so that you don't have to reinvent the wheel, and you can take 
advantage of these low price points for the launch, then we can 
really see this kind of space access revolution, which I think 
is upon us.
    Dr. McCandliss. I think most educators would say that 
cookbook experiments have their place in an educational 
environment, but it is not going to advance the science.
    Chairman Palazzo. I now recognize Ms. Edwards.
    Ms. Edwards. Thank you, Mr. Chairman.
    Mr. Nelson, in your written testimony you advocate for a 
full eight years of data gathering before, and I quote, 
``Unfettered regulation may begin.'' Does that mean also that 
space participants would continue in this period to fly under 
informed consent? Some say that is ``fly at your own risk.'' 
You said it. And I recognize the need for the industry to kind 
of get its sea legs, and we are not anywhere near yet the level 
of experience achieved in aviation, but it seems that this is a 
pretty lengthy time.
    What do you hope to gain and what experience do you hope to 
gain over the eight years of licensed flights, and why would a 
lesser time period not provide similar results?
    Mr. Nelson. Thank you, Congresswoman. It is a very good 
question. Between the Wright Brothers' first flight and the 
introduction of the DC-3, which is recognized as the sort of 
breakthrough safety vehicle, there was approximately 30 years 
of experience gained with hundreds of different types of 
aircraft, systems, engines, flight environments, customer 
types, and businesses. We see that when you, even though 
technology now expands and develops quicker, we still need a 
period of time to operate and to practice and to learn. And as 
we better understand how we will make these vehicles as safe as 
we can and still remain economically viable, we need to take 
that time.
    To answer your question about after the eight-year learning 
period and we start to have the beginning of a regulatory 
environment and certification standards, we still want to fly 
with informed, under informed consent, meaning it should 
continue indefinitely as my colleague to my right mentioned.
    The reason for that is is because in order to have a 
statistically-significant database to go through the assured 
safety ten to the minus six safety levels that are normally 
associated with even general aviation, you need thousands and 
thousands and thousands of flights, and it is important for us 
to have that experience.
    Thank you.
    Ms. Edwards. Thanks. I just want to remind us all that 
nobody paid to go on the Wright Brothers flights. I don't 
recall that as part of the history books, and I wonder, Dr. 
McCandliss, I want to go back to something that you mentioned 
earlier, which is this question of whether you really do need 
for, real science, and I am not talking about, not that the 
high school scientists for an education purpose aren't really 
great, but I am talking about our Ph.D. scientists at Johns 
Hopkins and our other research institutions. The kind of 
environment that you need in order to perform the science that 
you could then have peer reviewed. The environment that has 
been described on the vehicles that we are talking about, do 
you think that that is at a, projected to be at a capacity 
where you would be able to do that kind of experimentation, 
developing instrumentation that is really sensitive in an 
environment that also contain human payloads or human people?
    Dr. McCandliss. Yeah. It will depend upon the type of 
science that you are talking about. Now, for things like 
physiological research to see whether or not people will be 
able to keep their lunch down----
    Ms. Edwards. I am talking about high, you know, sort of 
really high technology instrumentation.
    Dr. McCandliss. Right. For our own purposes for say NASA 
science programs where we have strategic plans that we are 
trying to advance and discover secrets of the universe for lack 
of a better term, we require a good strong base of researchers 
who are savvy and can carry out a lot of the tasks that are 
associated with building instruments, which as everybody down 
the line here knows is a very painful process to get everything 
to work all at once. There are a lot of Frankenstein moments, 
you know, where you finally have breathed life into the 
instrument, and it lives, and everyone is very happy. But there 
is a lot of sweat and pain that goes up to that.
    Ms. Edwards. I only call our attention to it because I do 
think it raises a question about how we are going to be able to 
carry the passengers that want to fly and have left deposits 
with what we need to do scientifically.
    Dr. McCandliss. Ms. Edwards----
    Ms. Edwards. And before you get there, I just wonder also 
if you could clarify for the record that even though you work 
with an NTSB partner who is on your site, NTSB does not 
currently have any legislative, statutory authority in 
commercial spaceflight. Isn't that correct?
    Mr. Whitesides. To be honest, I am not an expert on this 
subject, but my impression is that if there was a mess up, I 
believe it has been represented to us that the NTSB would work 
with AST on that investigation.
    Ms. Edwards. I feel certain that the NTSB doesn't have any 
current legislative authority.
    Mr. Alexander. The FAA, AST and the NTSB have an MOU 
jointly signed by the two parties. Whether they have statutory 
authority or not, I can't speak to.
    Mr. Nelson. And just a couple weeks ago they actually did 
sort of an accident practice out in Mojave with NTSB local 
first responders and participants from the industry as well as 
the airport and fire and rescue. So I know that they are 
actively engaged in the subject matter of which you speak.
    Ms. Edwards. Thank you. Mr. Chairman, maybe there is some 
point at which we could actually bring the NTSB in and FAA and 
ask some of these questions. I mean, our witnesses, you know, 
they are terrific, but they aren't in a position to answer 
those questions.
    Thank you.
    Chairman Palazzo. I now recognize the gentleman from 
California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
just note that by eliminating the burden of informed consent, 
what we actually did is we eliminated the weight, the 
unnecessary weight of having extra lawyers on every flight, and 
that I think has made a major difference and would have made a 
major difference in the Wright Brothers as well. It isn't so 
much as a subsidy as it is the elimination of an unnecessary 
factor, especially if you consider people should be free to 
decide for their own selves if they would take risks in their 
lives.
    As my father was a Marine fighter pilot and guess what? 
When he signed up, he knew exactly what the risks were, and he 
was willing to do it, we put lawyers into the whole system of 
the military because was he able to make that informed consent? 
Well, of course, he was.
    When we should put the regulatory regime onto your industry 
as compared to other industries in the past. I would suggest 
that eight years more experience in finding out what your 
industry is going to be all about, we don't know right now 
whether the suborbital space is going to lead to satellites 
being launched or how far you are going to be able to take 
passengers, whether it is going to be a ride up and a ride down 
or whether it is going to be a ride to the other side of the 
world. We don't know those things yet, and this is a softball 
question for the panel, but wouldn't it be more dangerous to 
put regulations in place right now before we have gathered all 
of the statistics on the differential type of flights that you 
are going to be making over this next 8 years?
    That is a softball question. I am sure somebody can answer 
it there.
    Dr. Stern. Well, I will speak from the standpoint of the 
research community, and the power of these vehicles to 
transform our ability to do frontline research and to do 
education, two very different things, is in the frequency of 
flight. It is not that they are going somewhere new. It is that 
they are going there every day. So we can go to the upper 
atmosphere every day or we can, for example, look at 
physiological changes and how people adapt to zero gravity with 
much larger groups of people than a few select astronauts to 
fly hundreds of thousands of people.
    It is the frequency of flight that is key, and if the 
regulatory environment hampers, impedes, or stifles that, then 
we won't get the research benefits, and we probably won't have 
the tourism benefits either.
    Mr. Rohrabacher. Anybody else want to answer that?
    Mr. Nelson. In the past I have used a hypothetical example, 
and I guess I should do the research on it, but, you know, we 
have wiring that runs by cryogenic tanks. In aircraft you don't 
have wires that run by cryogenic tanks. If they were going to 
regulate aircraft wiring on our vehicle, that could potentially 
create a safety hazard.
    So we would have to go through a various process to get it 
waived, get it changed, et cetera, but by creating regulations 
that we don't have experience around, then you perhaps create 
an environment of just I just described.
    Mr. Rohrabacher. I think that we should have faith in our 
entrepreneurs and our frontiersmen and our explorers, at least 
for a limited period of time so that they can push back the 
frontier, and then we can come in when--and reach our 
compromises and reach our argreements as to how much regulation 
is needed to make sure our society functions as a whole.
    One last question for Mr. Stern. What type of training is 
necessary for researchers to fly along with their payloads into 
suborbital space, and are there companies that offer this type 
of training, or is it provided by the government or provided by 
these companies themselves that are providing the 
transportation?
    Dr. Stern. Yes, sir. That is a very good question, and I 
will speak from the standpoint that my firm, the Southwest 
Research Institute, has already invested our own money to 
purchase nine spaceflight tickets on XCOR and Virgin Galactic 
for the purpose of research missions, early research missions 
not paid for by the government but from our own funds. So we 
are already in the process of doing that. I am the principle 
investigator of that program and therefore, going through our 
training process.
    The training falls into three categories. The first is to 
understand how to operate your own scientific gear, just as you 
would on a sounding rocket flight, which I did many times after 
peer review. The second is the same kind of training that the 
space tourists take just to be familiar with the environments 
and the cabin and the vehicles themselves, and the third kind, 
which I think is unique to the research community, is really to 
make sure that you are going to be effective in a short period 
of time. Time management, distraction management, et cetera.
    Earlier, Ms. Johnson asked a question, excuse me, Ms. 
Edwards asked a question about the efficacy of research 
flights, of research being done on tourist flights, and I am 
sure that is going to happen in the early days, but I think 
that we are going to see a real market differentiation. In 
fact, we already worked with Virgin Galactic to buy the first 
charter flight, which is all researchers, and I think that that 
is where you will see, just like cargo doesn't fly in the 
cabins with people, there are cargo flights, and there are 
passenger flights. You will see the development of research 
birds and specific research flights where everybody is down to 
business, and that will be separate from honeymooners or what 
have you and the tourist line that are going for a peak 
experience.
    Mr. Rohrabacher. Mr. Chairman, I would like to thank you 
for holding this hearing. This issue and this new industry is 
key to prosperity, it is key to national--and I would suggest 
that while they are working to make a buck and develop this new 
type of enterprise, it will have tremendous applications that 
will make our country safer. We will see a technology transfer 
from a private company into the defense arena rather than the 
other way around, and so we wish then Godspeed and lots of 
success.
    Thank you, Mr. Chair.
    Chairman Palazzo. Yes. Thank you, Mr. Rohrabacher, and I 
guess we need to start talking about how soon we have to put 
our Kodell request in for the most successful company with the 
best safety record.
    I do want to thank today's witnesses for their valuable 
testimony and the Members for their questions. The Members of 
the Subcommittee may have additional questions for the 
witnesses, and we will ask you to respond to those in writing. 
The record will remain open for two weeks for additional 
comments and statements from Members.
    The witnesses are excused, and this hearing is adjourned.
    [Whereupon, at 3:47 p.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Ms. Carissa Christensen
[GRAPHIC] [TIFF OMITTED] 75397.058

[GRAPHIC] [TIFF OMITTED] 75397.059

[GRAPHIC] [TIFF OMITTED] 75397.060

[GRAPHIC] [TIFF OMITTED] 75397.061

[GRAPHIC] [TIFF OMITTED] 75397.062

Responses by Dr. Alan Stern
[GRAPHIC] [TIFF OMITTED] 75397.064

[GRAPHIC] [TIFF OMITTED] 75397.065

[GRAPHIC] [TIFF OMITTED] 75397.066

Responses by Mr. George Whitesides
[GRAPHIC] [TIFF OMITTED] 75397.067

[GRAPHIC] [TIFF OMITTED] 75397.068

[GRAPHIC] [TIFF OMITTED] 75397.069

Responses by Mr. Bretton Alexander
[GRAPHIC] [TIFF OMITTED] 75397.070

[GRAPHIC] [TIFF OMITTED] 75397.071

[GRAPHIC] [TIFF OMITTED] 75397.072

[GRAPHIC] [TIFF OMITTED] 75397.073

[GRAPHIC] [TIFF OMITTED] 75397.074

[GRAPHIC] [TIFF OMITTED] 75397.075

[GRAPHIC] [TIFF OMITTED] 75397.076

[GRAPHIC] [TIFF OMITTED] 75397.077

Responses by Mr. Andrew Nelson
[GRAPHIC] [TIFF OMITTED] 75397.078

[GRAPHIC] [TIFF OMITTED] 75397.079

[GRAPHIC] [TIFF OMITTED] 75397.080

[GRAPHIC] [TIFF OMITTED] 75397.081

[GRAPHIC] [TIFF OMITTED] 75397.082

[GRAPHIC] [TIFF OMITTED] 75397.083

[GRAPHIC] [TIFF OMITTED] 75397.084

[GRAPHIC] [TIFF OMITTED] 75397.085

Responses by Dr. Stephan R. McCandliss
[GRAPHIC] [TIFF OMITTED] 75397.086

[GRAPHIC] [TIFF OMITTED] 75397.087

[GRAPHIC] [TIFF OMITTED] 75397.088

[GRAPHIC] [TIFF OMITTED] 75397.089

                                 <all>

</pre></body></html>
